_-_____

In the Supreme Court of the United States

BARBARA FAWCETT

Petitioner,
v.
CITIZENS BANK, N.A.,

Respondent.

CERTIFICATE OF SERVICE
I, Edward F. Haber, counsel for the petitioner and a member of the Bar of
this Court, certify on this 3rd day of September, 2019, I caused three copies of the
Petition for a Writ of Certiorari (including appendices) to be served by overnight
mail and electronic means on the following:
Brenda R. Sharton
Goodwin Procter LLP
100 Northern Avenue
Boston, MA 02210

Counsel for Respondent Citizens Bank, N.A.
I further certify that all parties required to be served have been served.

Edward F. Haber

